1a
APPENDIX A
________________________________
SUPREME COURT OF KENTUCKY
________________________________
No. 2018-SC-000592-DGE
COMMONWEALTH OF KENTUCKY, CABINET
FOR HEALTH AND FAMILY SERVICES,
Appellant.
v.
N.B.D.,
Appellee,
________________________________
RENDERED: JUNE 13, 2019
7/9/2019
CORRECTED: JULY 17, 2019
________________________________
On Review from Court of Appeals
Case Number 2018-CA-000494
Campbell Circuit Court Nos. 17-J-00422
and 17-J-00422-001
________________________________
OPINION OF THE COURT BY
JUSTICE D. LAMBERT
REVERSING
The Cabinet for Health and Family Services
(hereinafter Cabinet) seeks reversal of the Court of
Appeals, which held that the Campbell Family Court
erred in declining to conduct a Special Immigrant Juvenile (hereinafter SIJ) hearing at the disposition

2a
phase of a dependency, neglect and abuse case regarding N.M.D.J. (hereafter N.), an unaccompanied Guatemalan child. After thorough review, we reverse the
Court of Appeals.
I. Facts
N. was born in Guatemala in 2001 and will turn
eighteen in July 2019. She is now the mother of two
infant children, having one child born in 2017 in Arizona and one child born in 2018 in Kentucky. Only N.’s
case is before us. It is believed that her biological parents remain in Guatemala. They did not participate
directly in the dependency case filed below but were
appointed counsel. N. was also appointed counsel but
neither her counsel, nor the counsel for the parents
have participated in the appellate process. N.B.D. is
the mother of N.’s boyfriend (M.). M. is likewise a minor and the father of N.’s two children.
N.B.D., an adult resident of Newport, Kentucky,
filed a dependency petition in the Campbell County
Family Court (the petition was signed June 20, 2017,
but not filed until August 16, 2017) alleging the following:
N. is an unaccompanied minor from Guatemala who is in removal proceedings with
DHS1. She was released to her cousin’s custody. The cousin lives out of state. N. had a
child on January 24, 2017. Her cousin made
her pay for everything for her and the child.
My son, M., is the father of the child. N. could
not pay to live with her cousin and she came
here to live with me and my son. She is afraid
1

Department of Homeland Security.

3a
to return to Guatemala. She and M. were on
vacation in Mexico when they were kidnapped. The kidnappers held them in a
house. There was a lot of blood in the house. I
paid $3000 for their release. When they released them, they put covers on their heads
and took them to the U.S. border and told
them not to return to Guatemala. They had
both M. and N.’s (Petition ends abruptly at
this point).
As N.B.D. requested, temporary custody of N. was
placed with her at the first court appearance. The
Court also ordered the Cabinet to become involved to
offer services to N. After a couple of pretrial appearances, an adjudication hearing was set for December
20, 2017. At the end of the adjudication hearing, the
court found that the child was dependent as there was
no legal custodian present and set the disposition
hearing for January 31, 2018. Meanwhile, N. gave
birth to her second child on January 4, 2018. Two days
prior to the disposition hearing, N.B.D.’s counsel filed
a motion to continue the case, incorrectly alleging that
the newborn was premature and that the child remained in the hospital. Counsel also stated that two
experts had been retained to testify about the dangers
to N. if she returned to Guatemala; and that additional
time was needed by counsel to permit the experts to
interview N. and “form an opinion.” The Cabinet objected to a continuance and the Court overruled the
motion, conducted the dispositional hearing, and
adopted the recommendations of the Cabinet to continue custody of N. with N.B.D.
In addition to completing the standard form order
and docket sheet, Judge Woeste entered a separate

4a
five-page order addressing his findings in more detail,
including the fact that U.S. immigration authorities
had detained both N. and M. in Arizona, and had temporarily placed them with a cousin in Arizona pending
the immigration proceedings. He noted that N. and M.
subsequently ran from that federal immigration placement to the home of N.B.D. The Court also noted that
N. had testified that she had come from Guatemala
with M. and while they were traveling through Mexico, they were kidnapped by a gang.
The Court then addressed the motion for a continuance, the request for the SIJ special findings, and the
limits of its own jurisdiction to make SIJ findings. The
Court overruled the motion for a continuance because
it was the Court’s opinion that the testimony of experts regarding N.’s home country would not be relevant as the child was to stay in Kentucky in the custody of N.B.D., and therefore it was without the jurisdictional authority to undertake SIJ findings because
such findings were not relevant to the core dependency, neglect, and abuse issues before the court.
II. Special Immigrant Juvenile Status
under 8 U.S.C. Section 1101 (a)(27)(J)
and the Role of State Courts
In de Rubio v. Rubio Herrera, 541 S.W.3d 564 (Mo.
Ct. App. 2017), the Missouri Court of Appeals addressed the jurisdiction of Missouri courts to make SIJ
findings in a dissolution case where the parents were
both citizens of El Salvador and the custody of the
child was granted solely to the mother. The mother
wanted the court to enter an order that it would not be
in the child’s best interest to return to his home country with the father. Id. at 568-69. The de Rubio Court
discussed the statute, saying:

5a
The federal Immigration and Nationality Act
provides a path for undocumented immigrant
children who have been abused, neglected, or
abandoned to gain lawful permanent residency in the United States by obtaining Special Immigrant Juvenile status. In re Guardianship of Guaman, 879 N.W.2d 668, 671-72
(Minn. App. 2016) (citing 8 U.S.C.
§ 1101(a)(27)(J); 8 CFR § 204.11). A child who
obtains such status may become a naturalized
United States citizen after five years. Eddie
E. v. Superior Court, 234 Cal. App. 4th 319,
326, 183 Cal.Rptr.3d 773 (Cal. App. 2015).
This process was established in 1990, when
Congress amended the Act to include the definition of “Special Immigrant Juvenile”
(“SIJ”) in 8 U.S.C. § 1101(a)(27)(J). Recinos v.
Escobar, 473 Mass. 734, 46 N.E.3d 60, 63
(2016). The 1990 definition required (1) a
finding by a state court that the child is “dependent on a juvenile court” and eligible for
long-term foster care, and (2) a finding that it
is “not in the child’s best interests to return to
his or her country of origin.” Id. at 64. In 1997,
Congress modified the definition to include a
child who had been “legally committed to, or
placed under the custody of, an agency or department of a State” and required that eligibility for long-term foster care be “due to
abuse, neglect, or abandonment.” Id.
Id. at 569-70 (footnotes omitted).
On appeal, the mother argued the circuit court
erred by not making the findings required for SIJ status. Id. at 571. The Court found no error based on the

6a
fact that Missouri does not have a statute or legal precedent requiring a court to issue special findings of
fact to qualify a juvenile for SIJ status. Id. at 571-72.
Nor does the federal statute itself require a state to
make those findings. Id. at 571. The Court acknowledged that a court is permitted to make those findings, but the obligation to do so arises solely from a
court’s duty to act in the child’s best interest. Id. at
573. Ultimately, the court held:
Our reading of the SIJ statute is in accordance with the analysis in [Canales v. Torres
Orellana, 800 S.E.2d 208 (Va. Ct. App. 2017)],
which is consistent with the idea that federal
law cannot mandate a state court to
make findings but may rely on state
courts in the proper circumstances to
make such findings that are in a child’s
best interest and required of the court while
in the position of in loco parentis.
Id. (emphasis added).
The case cited by the de Rubio opinion, Canales v.
Torres Orellana, 800 S.E.2d 208 (Va. Ct. App. 2017),
came to the same well-reasoned conclusion. In
Canales, mother and father were both Honduran. Id.
at 212. When the child was two, the mother immigrated to the United States and left the child in the
care of the child’s grandmother in Honduras. Id. Nine
years after immigrating, when the child was in the
United States, the mother petitioned the juvenile
court to grant her sole custody and make specific factual findings that the child had been “abused” and
“abandoned” by the child’s father, as those are the
terms used in the SIJ statute. Id. 212-13. The father
at all times lived in Honduras and his whereabouts

7a
were unknown. Id. The juvenile court granted sole custody to the mother but declined to make the specific
SIJ findings. Id. The mother then appealed to the Circuit Court. Id. The Circuit Court also granted the
mother sole custody, but declined to make the specific
SIJ findings, believing it “did not have jurisdiction to
make findings as to [SIJ] petitions[,] as such authority
is not set forth in the Code of Virginia.” Id.
The Virginia Court of Appeals agreed with the circuit court, holding:
the SIJ statute does not request, much less
order, state courts to make specific, separate
SIJ findings; rather, it allows the appropriate
federal entities to consider a state court’s findings of fact, as recorded in a judgment order
rendered under state law, when determining
whether an immigrant meets the SIJ criteria.
In other words, the SIJ definition only lists
certain factors which, if established in state
court proceedings, permit a juvenile immigrant to petition the United States Citizenship and Immigration Services (“USCIS”) of
the Department of Homeland Security for SIJ
status—8 U.S.C. § 1101(a)(27)(J) does not require that the state court make such findings
or convey jurisdiction upon them to do so.
Id. at 217.
In this case, N.B.D. requested the extra finding by
the trial court to start the process of qualifying the
child for Special Immigrant Juvenile status under 8
U.S.C Section 1101(a)(27)(J).
Under the Immigration and Naturalization Act, a
“special immigrant” juvenile is defined as follows:

8a
(27) The term “special immigrant” means—
[. . .]
(J) an immigrant who is present in the
United States—
(i) who has been declared dependent on a
juvenile court located in the United States
or whom such a court has legally committed
to, or placed under the custody of, an
agency or department of a State, or an individual or entity appointed by a State or juvenile court located in the United States,
and whose reunification with 1 or both of
the immigrant’s parents is not viable due to
abuse, neglect, abandonment, or a similar
basis found under State law;
(ii) for whom it has been determined in administrative or judicial proceedings that it
would not be in the alien’s best interest to
be returned to the alien’s or parent’s previous country of nationality or country of last
habitual residence; and
(iii) in whose case the Secretary of Homeland Security consents to the grant of special immigrant juvenile status, except
that—
(I) no juvenile court has jurisdiction to determine the custody status or placement of
an alien in the custody of the Secretary of
Health and Human Services unless the Secretary of Health and Human Services specifically consents to such jurisdiction; and

9a
(II) no natural parent or prior adoptive parent of any alien provided special immigrant
status under this subparagraph shall
thereafter, by virtue of such parentage, be
accorded any right, privilege, or status under this chapter;
8 U.S.C. § 1101(a)(27)(J).
Nothing contained in the Immigration and Nationality Act directs a state court to take any additional steps beyond carrying out their duties under
state law. In fact, the United States Citizenship and
Immigration Services (“USCIS”) Policy Manual states
as follows:
USCIS must review the juvenile court order
to conclude that the request for SIJ classification is bona fide, which means that the juvenile court order was sought to obtain relief
from abuse, neglect, abandonment, or a similar basis under state law, and not primarily
or solely to obtain an immigration benefit.
The court ordered dependency or custodial
placement of the child is the relief being
sought from the juvenile court.
USCIS Policy Manual, Vol. 6, Part J, ch. 2 (D)(5), 2017
WL 443003 (footnote omitted).
The Policy Manual also recognizes that the federal
law does not specifically direct the states to undertake
a SIJ classification hearing. “There is nothing in the
USCIS guidance that should be construed as instructing juvenile courts on how to apply their own state
law.” USCIS Policy Manual, Vol. 6, Part J, ch.2 (D)(4),
2017 WL 443003. Rather the Manual directs state
courts only to follow state laws as to when to exercise

10a
their authority, and to use their own evidentiary rules
and due process guidelines in deciding whether to undertake a SIJ review. USCIS Policy Manual, Vol 6,
Part J, ch. 3(A)(2), 2017 WL 443004.
III. Jurisdiction of Kentucky Courts in
Dependency, Neglect and Abuse Cases
Here, N. met the first of the dependency and
placement requirements, but the Court found that it
did not have the authority under state statutes to
make the requested additional SIJ findings. The Family Court has jurisdiction via KRS2 23A.100(2)(c) and
KRS 6203 to handle dependency, neglect and abuse
2
3

Kentucky Revised Statutes.

620.023 Evidence to be considered in determining the best
interest of a child. (1) Evidence of the following circumstances if
relevant shall be considered by the court in all proceedings conducted pursuant to KRS Chapter 620 in which the court is required to render decisions in the best interest of the child: (a)
Mental illness as defined in KRS 202A.011 or an intellectual disability as defined in KRS 202B.010 of the parent, as attested to
by a qualified mental health professional, which renders the parent unable to care for the immediate and ongoing needs of the
child; (b) Acts of abuse or neglect as defined in KRS 600.020 toward any child; (c) Alcohol and other drug abuse, as defined in
KRS 222.005, that results in an incapacity by the parent or caretaker to provide essential care and protection for the child; (d) A
finding of domestic violence and abuse as defined in KRS 403.720,
whether or not committed in the presence of the child; (e) Any
other crime committed by a parent which results in the death or
permanent physical or mental disability of a member of that
parent's family or household; and (f) The existence of any guardianship or conservatorship of the parent pursuant to a determination of disability or partial disability as made under KRS
387.500 to 387.770 and 387.990. (2) In determining the best interest of the child, the court may consider the effectiveness of

11a
actions and to make findings as to the best interest of
the child. Clearly, N., as an unaccompanied minor
child, whose parents are believed to be residents of
Guatemala, is a dependent child and is entitled to the
protection and care of the Commonwealth of Kentucky
via KRS Chapter 23A.100. The ultimate question presented here is whether the Family Court must make
additional findings relevant to the child’s SIJ classification, upon request, in every such case. We hold that
the courts of Kentucky are not required to make additional findings related to SIJ classification unless the
court first determines that the evidence to be gleaned
from such a supplemental hearing is relevant to the
child’s best interests. We agree with the family courts’
assessment of the jurisdictional statutes and agree
that our General Assembly has not specifically directed Kentucky’s courts to make SIJ findings.4 Some
state courts have held that their jurisdiction was sufficient without the legislature enacting more specific
statutes addressing SIJ classification findings.5
We agree with the findings of Judge Woeste that
“[s]uch a hearing is unnecessary where the Court has

rehabilitative efforts made by the parent or caretaker intended to
address circumstances in this section.
4
Some state legislatures have amended their statutes to direct courts to make SIJ determinations. See, e.g., Fla. Stat. Ann.
Section 39.5075(4) (West 2005), Md. Code Ann. Fam. Law, Section 1-201(a) and (b)(1), and N.Y. Fam. Ct. Act Section 661(a).
5

See, e.g., Matter of Guardianship of Luis, 114 N.E.3d 855
(Ind. Ct. App. 2018); Guardianship of Penate, 76 N.E.3d 960
(Mass. 2017); Florida Dep’t of Children and Families, 215 So. 3d
1219 (Fla. 2017); In re Guardianship of Guaman, 879 N.W.2d 668
(Minn. Ct. App. 2016); H.S.P. v. J.K., 121 A.3d 849 (N.J. 2015);
and In the interest of J.J.X.C., 734 S.E.2d 120 (Ga. Ct. App. 2012).

12a
found that the child is dependent and that the present
custodial arrangements are appropriate to serve the
best interests of the child.” However, we hold that under proper circumstances, where such a placement of
the child back into the country where he or she was
abused, neglected or abandoned is being considered by
the state court, the courts of Kentucky are empowered
under KRS 620.023 and other statutes which grant authority to determine custody or placement of a child,
to make additional findings to determine whether it
would be in the child’s best interest to return to his or
her native country. In this case, where N.B.D.
acknowledges in her initial petition that N. was “in removal proceedings with DHS” and the child’s testimony confirms that she and M. ran from the Arizona
home where they had been placed by immigration authorities, there are also grave concerns about the use
of the juvenile process by N.B.D. to circumvent federal
immigration law. The Supremacy Clause of the U.S.
Constitution prohibits states from resolving immigration hearings.6 Rather, the proper place for such expert
evidence in this case is not in any state court, but in
federal immigration court.
For the foregoing reasons, we reverse the Court of
Appeals.
All sitting. Buckingham, Keller, Lambert, and
Wright, JJ., all concur. VanMeter, JJ., concurs in result only. Minton, C.J. dissent by separate opinion in
which Hughes, J., joins.

6

U.S. Const, art. VI, cl. 2.

13a
MINTON, C.J., DISSENTING:
I agree with the majority’s recognition that Kentucky courts have jurisdiction to make Special Immigrant Juvenile Status (“SIJS”) findings. But I must respectfully dissent from the majority’s holding that our
trial courts are not required to engage in SIJS factfinding. I fear the majority signals a reluctance on the part
of our state courts in Kentucky to engage fully in the
collaborative process established by federal law to protect the welfare of undocumented immigrant children.
And this holding, in my view, subverts the overarching
duty of our courts to guard the best interests of all children who come before us.
The United States Supreme Court “has long made
clear that federal law is as much the law of the several
States as are the laws passed by their legislatures.
Federal and state law ‘together form one system of jurisprudence, which constitutes the law of the land for
the State; and the courts of the two jurisdictions are
not foreign to each other, nor to be treated by each
other as such, but as courts of the same country, having jurisdiction partly different and partly concurrent’”.7
The jurisdictions identified by the majority that
require their state courts to engage in SIJS factfinding
whenever an undocumented immigrant child is before
them in a dependency, neglect, and abuse (“DNA”) action, even in the absence of a state statutory mandate

7

Haywood v. Drown, 556 U.S. 729, 734-35 (2009) (quoting
Claflin v. Houseman, 93 U.S. 130, 136-37 (1876)).

14a
to do so, recognize the collaborative responsibility of
their state courts to engage in SIJS factfinding.8
Federal law leaves to state courts the responsibility of deciding family law matters: “The whole subject
of the domestic relations of husband and wife, parent
and child, belongs to the laws of the states, and not to
the laws of the United States.”9 Recognizing the proficiency of state courts’ handling of family law issues,
while at the same time recognizing the proficiency of
federal authorities’ handling of immigrant issues, the
federal government, in furtherance of the idea of cooperative federalism, has entrusted to state courts the
8

See, e.g., H.S.P. v. J.K., 121 A.3d 849, 852 (N.J. 2015)
(“[Family courts] play[ ] a critical role in a minor immigrant’s attempt to obtain SIJ status[.] . . . The [family court’s] role in the
SIJ process is . . . to apply its expertise in family and child welfare
matters to the issues raised in 8 C.F.R. § 204.11 [.] . . . This approach will provide USCIS with sufficient information to enable
it to determine whether SIJ status should be granted or denied[.]”); In re Guardianship of Guaman, 879 N.W.2d 668, 671
(Minn. App. 2016) (“Congress charged state courts with making
SIJ findings because it ‘recogniz[ed] that juvenile courts have
particularized training and expertise in the area of child welfare
and abuse, which places them in the best position to make determinations on the best interests of the child and potential or family reunification.’”) (quoting In re Hei Ting C., 109 A.D.3d 100
(N.Y. 2013)); Guardianship of Penate, 76 N.E.3d 960, 966 (Mass.
2017) (“Congress delegated [SIJS factfinding] to State courts because it recognized “the distinct expertise State courts possess in
the area of child welfare and abuse,’ which makes them best
equipped to shoulder The responsibility to perform a best interest
analysis and to make factual determinations about child welfare
for purposes of SIJ eligibility.”’) (quoting Recinos v. Escobar, 46
N.E.3d 60, 65 (Mass. 2016)).
9

Ex parte Burrus, 136 U.S. 586, 593-94 (1890).

15a
duty to make certain preliminary findings that bear on
an undocumented immigrant child’s ability to seek
custody in the care of an individual or entity in the
United States.
As the majority recognizes, the federal government has charged, but not mandated, state courts with
making certain findings pertaining to an undocumented immigrant child’s SIJS. “Only once a state juvenile court has issued [the requisite] factual predicate order may the child, or someone acting on his or
her behalf, petition the [USCIS] for SIJS.”10 “The process for obtaining SIJ status is ‘a unique hybrid procedure that directs the collaboration of state and federal
systems.’”11 As the Court of Appeals noted in the case
at hand, without the requisite SIJS findings by a Kentucky court, undocumented immigrant children in
Kentucky will be unable to proceed with an application
for SIJS and may possibly face deportation. It is not
an exaggeration to say that that child’s “immigration
status hangs in the balance.”12
The requisite factual predicate to obtain SIJS is
contained in 8 U.S.C. § 1101(a)(27)(J) and 8 C.F.R.
204.11. The statute, 8 U.S.C. § 1101(a)(27)(J), states
the following, in relevant part:

10

In re Enis A.C.M., 152 A.D.3d 690, 692 (N.Y. App. Div. 2017)
(quoting Matter of Marisol N.H., 115 A.D.3d 185, 188-89 (N.Y.
App. 2014)).
11

Recinos v. Escobar, 46 N.E.3d 60, 64 (Mass. 2016) (quoting
H.S.P. v. J.K., 121 A.3d 849 (N.J. 2015); Matter of Marisol N.H.,
115 A.D.3d 185, 188 (N.Y. 2014)).
12

In re J.J.X.C., 734 S.E.2d 120, 124 (Ga. Ct. App. 2012).

16a
The term “special immigrant” means an immigrant who is present in the United States—
(i) Who has been declared dependent on a
juvenile court located in the United
States or whom such a court has legally
committed to, or placed under the custody of, an agency or department of a
State, or an individual or entity appointed by a State or juvenile court located in the United States, and whose reunification with 1 or both of the immigrant’s parents is not viable due to abuse,
neglect, abandonment, or a similar basis
found under State law; [and]
(ii) For whom it has been determined in administrative or judicial proceedings that
it would not be in the alien’s best interest
to be returned to the alien’s or parent’s
previous country of nationality or country
of last habitual residence[.]
8 C.F.R. § 204.11 states the following, in relevant part:
An alien is eligible for classification as a special immigrant. . . if the alien: . . .
(1) [i]s under twenty-one . . . ;
(2) [i]s unmarried;
(3) [h]as been declared dependent upon a
juvenile court. . . in accordance with state
law governing such declarations of dependency . . . ;
(4) [h]as been deemed eligible by the juvenile court for long-term foster care;

17a
(5) continues to be dependent upon the juvenile court and eligible for long-term foster care . . . ; and
(6) [h]as been the subject of judicial proceedings or administrative proceedings authorized or recognized by the juvenile court
in which it has been determined that it
would not be in the alien’s best interest to
be returned to the country of nationality or
last habitual residence of the beneficiary or
his or her parent or parents[.]”
“[‘]Juvenile court[’] means a court located in the
United States having jurisdiction under State law to
make judicial determinations about the custody and
care of juveniles[.]”13 In Kentucky, those courts are the
circuit family courts or the juvenile session of the district court in circuits where there is no family court
division of circuit court.
Under KRS 620.023(1), in a DNA action, “the
court is required to render decisions in the best interest of the child[.]” The “best interest of the child”
standard is the hallmark of Kentucky family law decision making, and Kentucky’s courts have a responsibility to dispose of a case according to the “best interest
of the child.”
When an undocumented immigrant child appears
before a Kentucky court of competent jurisdiction in a
DNA action, there are essentially three potential scenarios that could occur: 1) the court engages in SIJS
factfinding, determining that it is not in the child’s
best interests to be returned to the custody of his or
13

8 U.S.C. § 204.11(a).

18a
her parents or native homeland; 2) the court engages
in SIJS factfinding, determining that it is in the child’s
best interests to be returned to the custody of his or
her parents or native homeland; or 3) the court does
not engage in SIJS factfinding at all, disposing of the
case as it sees fit.
In the first suggested scenario, the trial court engages in SIJS fact finding, determining that it is not
in the child’s best interests to be returned to the custody of his or her parents or native homeland. The trial
court’s only real option is to place the child in the custody of an individual or entity within the United
States. And, because the trial court has engaged in explicit SIJS factfinding, it has ensured that the child
can petition the federal government for SIJS without
which the child would be subject to deportation. Deportation is—under this scenario—the exact situation
that the trial court explicitly found would not be in the
child’s best interests. The trial court has fulfilled its
duty to dispose of the child’s case according to that
child’s best interest.
In the second scenario, the trial court engages in
SIJS factfinding, determining that it is in the child’s
best interest to be returned to the custody of his or her
parents or native homeland. Although the trial court
has determined that deportation is in the child’s best
interest, only the federal government has the power to
ensure that deportation occurs. In this manner, the
trial court has nevertheless fulfilled its responsibility
to dispose of the case according to the child’s best interest because it has supplied the federal government
with the information it needs to deport the child, the
exact situation that the trial court has determined
would be in the child’s best interest.

19a
A variation of the final scenario is the one presented to this Court in the case at hand. Here, as the
majority notes, the trial court “found that the child is
dependent and that the present custodial arrangements are appropriate to serve the best interests of the
child,” the “present custodial arrangements” being the
placement of the child in the custody of the child’s boyfriend’s mother here in Kentucky. Because the trial
court concluded in this way, the trial court found engaging in SIJS factfinding to be “unnecessary.”
But without the requisite SIJS factfinding that
the trial court refused to engage in, this child cannot
petition the federal government for SIJS to prevent deportation. This result is contrary to the trial court’s
conclusion that “the present custodial arrangement[ ],” i.e. custody in the hands of an individual in
the U.S., is in the child’s best interest. It is impossible
for the trial court to assuredly say that it fulfilled its
duty to dispose of the case in furtherance of the child’s
best interest because the family court not only allowed
but created the risk of a different outcome for this
child—deportation. And that outcome is directly contrary to the trial court’s finding that placement of the
child in the care of an individual or entity within the
U.S. is in the child’s best interest.
To ensure compliance with the judiciary’s duty to
dispose of juvenile cases according to the child’s best
interest and to ensure that Kentucky does not shirk its
duty in cooperative federalism, I would require Kentucky’s courts always to engage in SIJS factfinding
when an undocumented immigrant child is before the
court in an action involving a custodial arrangement.
I would affirm the Court of Appeals and remand this

20a
case to the trial court with instructions to engage in
SIJS factfinding.
Hughes, J. joins.

21a
________________________________
SUPREME COURT OF KENTUCKY
________________________________
No. 2018-SC-000592-DGE
COMMONWEALTH OF KENTUCKY, CABINET
FOR HEALTH AND FAMILY SERVICES,
Appellant.
v.
N.B.D.,
Appellee,
________________________________
JULY 17, 2019
________________________________
On Review from the Court of Appeals
Case Number 2018-CA-000494-MR
Campbell Circuit Court Nos. 17-J-00422
and 17-J-00422-001
________________________________
ORDER CORRECTING
The Opinion of the Court by Justice Lambert rendered June 13, 2019 is corrected and the attached
opinion is hereby substituted in lieu of the original
opinion. Said correction does not affect the holding of
the original opinion rendered by the Court.
ENTERED: July 17, 2019
s/
Chief Justice

22a
APPENDIX B
________________________________
COMMONWEALTH OF KENTUCKY
COURT OF APPEALS
________________________________
No. 2018-CA-000494-ME
N.B.D.,
Appellant,
v.
CABINET FOR HEALTH AND FAMILY SERVICES;
N.M.D.J., A MINOR CHILD; R.D.; AND F.J.,
Appellees.
________________________________
RENDERED: NOVEMBER 2, 2018; 10:00 A.M.
TO BE PUBLISHED
OPINION OF OCTOBER 5, 2018, WITHDRAWN
________________________________
Appeal from Campbell Circuit Court
Honorable Richard A. Woeste, Judge
Action Nos. 17-J-00422 & 17-J-0422-001
________________________________
OPINION REVERSING AND REMANDING
BEFORE: CLAYTON, CHIEF JUDGE; JOHNSON
AND KRAMER, JUDGES.
CLAYTON, CHIEF JUDGE: Under the Immigration and Nationality Act, 8 United States Code
(U.S.C.) § 1101(a)(27)(J) (2014), an undocumented juvenile immigrant may apply for permanent residency
by obtaining special immigrant (“SIJ”) status. As a

23a
predicate to acquiring this status, the immigrant must
present findings from a state juvenile court that he or
she satisfies certain statutory criteria. This appeal is
taken from a Campbell Family Court order declining
on jurisdictional grounds to make such findings regarding N.M.D.J. (“Child”), a minor who was born in
Guatemala and now resides in Kentucky.
A person who qualifies for SIJ status is defined as
[A]n immigrant who is present in the United
States—
(i) who has been declared dependent on a
juvenile court located in the United States
or whom such a court has legally committed
to, or placed under the custody of, an
agency or department of a State, or an individual or entity appointed by a State or juvenile court located in the United States,
and whose reunification with 1 or both of
the immigrant’s parents is not viable due to
abuse, neglect, abandonment, or a similar
basis found under State law;
(ii) for whom it has been determined in administrative or judicial proceedings that it
would not be in the alien’s best interest to
be returned to the alien’s or parent’s previous country of nationality or country of last
habitual residence; and
(iii) in whose case the Secretary of Homeland Security consents to the grant of special immigrant juvenile status[.]
8 U.S.C. § 1101(a)(27)(J).
Thus, “[b]efore an immigrant child can apply for
SIJ status, she must receive the following predicate

24a
findings from a ‘juvenile court’: (1) she is dependent on
the juvenile court; (2) her reunification with one or
both parents is not viable due to abuse, neglect, or
abandonment; and (3) it is not in her best interests to
return to her country of origin.” Recinos v. Escobar, 46
N.E.3d 60, 62 (Mass. 2016) (footnote omitted). “Once
these special findings are made, an application and
supporting documents may be submitted to the United
States Citizenship and Immigration Services (USCIS)
agency. An application for SIJ status must be submitted before the immigrant’s twenty-first birthday.” Id.
(Citing 8 Code of Federal Regulations (C.F.R.) § 204.11
(2009)) (footnote omitted). “Congress created the SIJ
classification to permit immigrant children who have
been abused, neglected, or abandoned by one or both
of their parents to apply for lawful permanent residence while remaining in the United States.” Id.
Child was born in Guatemala in 2001. In September 2016, Child and her boyfriend (“Boyfriend”) traveled to Mexico from Guatemala to vacation and visit
relatives. Child was pregnant at the time. While in
Mexico, the couple was kidnapped by a gang. They
paid $3,000 to be released. The gang took them to the
United States border and told them not to return to
Guatemala. The couple came across the border and
were detained in Arizona by immigration authorities.
Child was placed in the custody of a cousin in Arizona
pending further immigration proceedings. She gave
birth on January 24, 2017. According to Child, her
cousin tried to make her pay for everything for herself
and the baby. She and Boyfriend, who is the father of
the baby, left Arizona and went to northern Kentucky
to live with N.B.D., Boyfriend’s mother (“Appellant”).

25a
On August 16, 2017, Appellant filed a juvenile dependency, neglect or abuse petition in Campbell Family Court. On September 6, 2017, the Child was placed
in the temporary custody of Appellant and the family
court ordered the Cabinet to become involved in the
case. On January 14, 2018, Child gave birth to another
baby. Appellant filed a motion to continue the dispositional hearing in order to procure the testimony of experts about gang and drug cartel violence in Guatemala and Mexico, and for a pediatric psychiatrist to
perform an evaluation of Child’s trauma resulting
from the kidnapping in Mexico. The family court denied the motion, stating that those issues were not relevant to the disposition. The Cabinet recommended
Child be left in Appellant’s custody and also reported
allegations of domestic abuse of Child by Boyfriend.
The family court adopted the Cabinet’s recommendation and awarded continued custody to the Appellant.
The court also referred Child to the Women’s Crisis
Center and ordered Boyfriend to undergo an anger
management assessment. The family court refused on
jurisdictional grounds the request of Appellant’s counsel to make additional findings to satisfy the requirements of 8 U.S.C. § 1101(a)(27)(J) which might enable
Child to acquire SIJ status. Its order stated in pertinent part as follows:
This Court’s jurisdiction is set forth in KRS
23A.100. Pursuant to that statute, this Court
has jurisdiction to preside over dependency,
neglect and abuse actions under KRS 620.
KRS 620.140 provides dispositional alternatives after a child is found to be dependent.
There are no provisions in either statute
which would require this Court to hold a

26a
separate hearing and engage in 8 U.S.C. 1101
factfinding process to decide whether or not
reunification with the child’s parents in Guatemala is viable due to possible abuse, neglect
or abandonment. In addition, there is nothing
in the above mentioned law that requires a
finding that the child’s best interests would
not be served by returning the child to the
previous country or nationality . . . [.] Such a
hearing is unnecessary where the Court has
found that the child is dependent and that the
present custodial arrangements are appropriate to serve the best interests of the child.
This Court doesn’t have personal jurisdiction
over the parents of the child. The parents
have never made an appearance in the case.
Summons for the parents were issued but
were unserved. The Court can proceed in such
circumstances simply because the child is
found within the county. KRS 610.010(2).
However, the court’s exercise of jurisdiction is
subject to the assertion of jurisdiction of other
courts or jurisdictions as set forth in KRS
610.010(7).
Counsel for the custodian had made mention
in previous court hearings that there is [a]
mandate under federal law that this Court
make such a finding. No specific directive of
such could be found in the applicable federal
statutes. Moreover, this Court has serious
concerns about engaging in a factfinding process that spans from Campbell County, Kentucky into Arizona, through Mexico and into
Guatemala. The testimony in the prior

27a
adjudication hearing was that the child and
her boyfriend left Guatemala on their own accord. Such a factfinding process is better left
to the federal government who have personnel and resources in all the aforementioned
places. Furthermore, requiring a state court
to make findings necessary for federal immigration cases would seem to violate anti-commandeering doctrine under the Tenth
Amendment to the United States Constitution.
The family court concluded, “There is no requirement that this Court enter into an additional SIJ factfinding process under the applicable jurisdictional
statute nor the statutes relating to dependency, neglect and abuse.” This appeal followed.
There is no Kentucky statute which expressly requires a family court to make findings under the SIJ
statute. Several states, including California, Florida,
Maryland and Nebraska, have passed legislation directing their courts to make the requisite findings.
See, e.g., Cal. Civ. Proc. Code § 155 (a) and (b) (2016);
Fla. Stat. Ann. § 39.5075 (2005); Md. Code Ann., Fam.
Law § 1-201(b)(10)(2014); Neb. Rev. Stat. § 43-1238(b)
(2018).
Kentucky law defines subject-matter jurisdiction
as “the court’s power to hear and rule on a particular
type of controversy.” Nordike v. Nordike, 231 S.W.3d
733, 737 (Ky. 2007). The jurisdiction of Kentucky’s
family courts is defined in KRS 23A.100. Section (1) of
that statute lists areas of general jurisdiction which
the family courts retain as a division of the circuit
courts; section (2) lists areas of additional jurisdiction
including, as the family court noted, dependency,

28a
neglect and abuse proceedings as delineated in KRS
Chapter 620. In KRS 23A.110, the legislature explained that “[t]he additional jurisdiction of a family
court . . . shall be liberally construed and applied to
promote its underlying purposes, which are as follows:
. . . To assure an adequate remedy for children adjudged to be dependent, abused, or neglected[.]” KRS
23A.110(4). Without the requisite findings by the family court, Child will be unable to proceed with an application for SIJ status and may possibly face deportation. It is not an exaggeration to say that Child’s “immigration status hangs in the balance.” In re J.J.X.C.,
734 S.E.2d 120, 124 (Ga. Ct. App. 2012). As other state
appellate courts have agreed, the failure to make findings relevant to SIJ status “effectively terminates the
application for legal permanent residence, clearly affecting a substantial right” of the child. See, e.g., In re
Interest of Luis G., 764 N.W.2d 648, 654 (Neb. Ct. App.
2009); E.C.D. v. P.D.R.D., 114 So. 3d 33, 36 (Ala. Civ.
App. 2012). In our view, the SIJ fact-finding process
falls squarely within the family court’s jurisdiction as
furthering its purpose to provide an adequate remedy
for Child, who has been adjudged to be dependent and
whose substantial rights are affected by such findings
or lack thereof.
The family court is most emphatically not being
directed to “address immigration issues” or Child’s
“immigration status,” as argued by the dissent. In the
unpublished opinion relied upon by the dissent, Collins v. Santiago, No. 2007-CA-00391-MR, 2007 WL
3037762 (Ky. App. Oct. 19, 2007), a panel of this Court
affirmed the trial court’s refusal to consider a father’s
alleged status as an illegal alien in determining the
custody of his two minor children. Similarly, the

29a
family court in this case is not being asked to address
or consider Child’s immigration status; it is directed to
make findings that are solely within its unique competence and jurisdiction as a family court. Indeed, it is
hard to know what other judicial or administrative tribunal could be better equipped make such a finding.
The Cabinet argues, in reliance on an opinion of
the Virginia Court of Appeals, that there is simply no
specific directive in the federal statute that compels
state courts to make these findings. The Virginia
Court reasoned as follows:
As a preliminary matter, because the SIJ
statute is within the definitions portion of Title 8, it is clear that 8 U.S.C. § 1101(a)(27)(J)
only defines a special immigrant for the purpose of interpreting and enforcing the entirety of Title 8, and nothing more. There is
no language in any federal statute mandating
that state juvenile courts make the SIJ findings. Further, the SIJ statute does not request, much less order, state courts to make
specific, separate SIJ findings; rather, it allows the appropriate federal entities to consider a state court’s findings of fact, as recorded in a judgment order rendered under
state law, when determining whether an immigrant meets the SIJ criteria. In other
words, the SIJ definition only lists certain factors which, if established in state court proceedings, permit a juvenile immigrant to petition the United States Citizenship and Immigration Services (“USCIS”) of the Department of Homeland Security for SIJ status—
8 U.S.C. § 1101(a)(27)(J) does not require that

30a
the state court make such findings or convey
jurisdiction upon them to do so.
Canales v. Torres Orellana, 800 S.E.2d 208, 217 (Va.
Ct. App. 2017).
Although an SIJ applicant is required to provide federal officials with an order or orders
from a state court in support of his or her eligibility for SIJ status, the statutory scheme
and relevant federal guidance make clear
that such orders should have been generated
by state courts applying state law in the normal course of their responsibilities under the
laws of the respective states. Nothing in the
INA [Immigration and Nationality Act] directs a state court to do anything more than
carry out its adjudicatory responsibilities under state law.
Id. at 218 (footnote omitted).
This approach has been adopted by the Missouri
Court of Appeals, which has specified, “[I]f a state
court in the regular course of business happens to
make findings that fit within these parameters, then
the juvenile can take those findings to the federal authorities and apply for SIJ status.” de Rubio v. Rubio
Herrera, 541 S.W.3d 564, 573 (Mo. Ct. App. 2017),
reh’g and/or transfer denied (Jan. 30, 2018), transfer
denied (Apr. 3, 2018) (emphasis added). This reliance
on happenstance is problematic. If the family court “in
the regular course of business” happened to make a
finding that it was or was not in Child’s best interest
to return to Guatemala, it would presumably be acting
within its jurisdiction, whereas the Virginia and Missouri approach would mean that Child’s mere request

31a
for such a finding would deprive the family court of jurisdiction.
Other state courts have described the process for
obtaining SIJ status as “a unique hybrid procedure
that directs the collaboration of state and federal systems.” H.S.P. v. J.K., 121 A.3d 849, 857 (N.J. 2015)
(internal citations and quotation marks omitted). This
approach is based on the recognition, as we have
stated, that state courts have matchless expertise in
juvenile welfare matters. “The SIJ statute affirms the
institutional competence of state courts as the appropriate forum for child welfare determinations regarding abuse, neglect, or abandonment, and a child’s best
interests.” In re J.J.X.C., 734 S.E.2d at 124 (internal
citation omitted).
On the other hand, the role of state courts in the
SIJ process is carefully limited. The Supreme Court of
New Jersey has described the role of its family court,
the Family Part, in SIJ proceedings as critical but
“closely circumscribed:”
The Family Part’s sole task is to apply New
Jersey law in order to make the child welfare
findings required by 8 C.F.R. § 204.11. The
Family Part does not have jurisdiction to
grant or deny applications for immigration relief. That responsibility remains squarely in
the hands of the federal government. Nor does
it have the jurisdiction to interpret federal
immigration statutes. The Family Part’s role
in the SIJ process is solely to apply its expertise in family and child welfare matters to the
issues raised in 8 C.F.R. § 204.11, regardless
of its view as to the position likely to be taken

32a
by the federal agency or whether the minor
has met the requirements for SIJ status.
H.S.P., 121 A.3d at 852.
Similarly, the Appellate Division of the Supreme
Court of New York stated that
[t]he state court’s role in the SIJ process is not
to determine worthy candidates for citizenship, but simply to identify abused, neglected,
or abandoned alien children under its jurisdiction who cannot reunify with a parent or
be safely returned in. their best interests to
their home country. By issuing a special findings order, Family Court is not rendering an
immigration determination; such order is
merely a step in the process to assist USCIS
and its parent agency, the Department of
Homeland Security, in making the ultimate
immigration determination[.]
Matter of Guardianship of Keilyn GG., 74 N.Y.S.3d
378, 381 (N.Y. App. Div. 2018) (internal citations and
quotation marks omitted).
In keeping with its independence from the federal
immigration process, the family court is fully authorized as the finder of fact to conclude under Kentucky
law that a petitioner has failed to present evidence to
support the SIJ factors or that the evidence presented
was not credible. See, e.g., In re J.J.X.C., 734 S.E.2d at
124; Kentucky Rules of Civil Procedure (CR) 52.01. We
do not ask the family court to render an “advisory opinion,” as the dissent contends. The family court is not
being asked to “opine” at all; it is being asked to make
findings. The determination of Child’s immigration
status is a question solely for the federal authorities.

33a
Indeed, we are not motivated by a misguided sense of
sympathy, as the dissent suggests, to direct the family
court to make findings which it deems favorable to
Child’s prospects for attaining permanent residency.
The family court is merely being asked to make findings, based on the evidence presented by the parties,
regarding Child’s best interest, an area within its capability and jurisdiction.
The Cabinet argues that making the SIJ findings
could violate the anti-commandeering doctrine of the
Tenth Amendment of the United States Constitution.
“[T]the Tenth Amendment makes explicit that ‘[t]he
powers not delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved to the States respectively, or to the people[.]’”
New York v. United States, 505 U.S. 144, 155, 112
S. Ct. 2408, 2417, 120 L. Ed. 2d 120 (1992). The federal
government may not, therefore, commandeer ‘‘the legislative processes of the States by directly compelling
them to enact and enforce a federal regulatory program[.]” Id., 505 U.S. at 176, 112 S. Ct. at 2420. For
example, in a case involving the disposal of radioactive
waste, the United States Supreme Court concluded
that “while Congress has substantial power under the
Constitution to encourage the States to provide for the
disposal of the radioactive waste generated within
their borders, the Constitution does not confer upon
Congress the ability simply to compel the States to do
so.” Id., 505 U.S. at 149, 112 S. Ct. at 2414. Similarly,
in a case involving the enforcement of a federal gun
control law, the nation’s highest court deemed unconstitutional the obligation imposed on Chief Law Enforcement Officers to “make a reasonable effort to ascertain within 5 business days whether receipt or

34a
possession [of a handgun] would be in violation of the
[federal] law, including research in whatever State
and local recordkeeping systems are available and in
a national system designated by the Attorney General[.]” Printz v. United States, 521 U.S. 898, 903, 117
S. Ct. 2365, 2369, 138 L. Ed. 2d 914 (1997).
Unlike the laws invalidated in Printz and New
York, which mandated that states comply with detailed regulatory schemes, the SIJ statute does not impose any specific burden on state courts. See Gregory
Zhong Tian Chen, Elian or Alien? The Contradictions
of Protecting Undocumented Children Under the Special Immigrant Juvenile Statute, 27 Hastings Const.
L.Q. 597, 659 (2000). 8 United States Code (U.S.C.)
§ 1101(a)(27)(J) does not impose a duty on state courts
to comply with a federal scheme. In making findings
in this case, the family court will be exercising its
unique competence as a family court, not in response
to a federal directive, but in furtherance of the interests of Child whom it has already adjudged dependent.
Finally, we address the Appellant’s argument that
the family court erred in not transferring the case to
Boone Circuit Court because she and Child reside in
Boone County. “In civil actions, when the judge of the
court in which the case was filed determines that the
court lacks venue to try the case due to an improper
venue, the judge, upon motion of a party, shall transfer
the case to the court with the proper venue.” KRS
452.105. The Appellant does not provide any citation
to the record indicating that she filed a motion to
transfer the case to a different forum. Furthermore,
the Appellant initiated the action by filing her petition
in Campbell Circuit Court. “[W]hile the concept of
venue is important, it does not reach the fundamental

35a
level of jurisdiction, a concept whereby the authority
of the court to act is at issue.” Fritsch v. Caudill, 146
S.W.3d 926, 927 (Ky. 2004). “[V]enue is not the equivalent of jurisdiction and can be waived if not timely
raised.” Gibson v. Fuel Transp., Inc., 410 S.W.3d 56,
62 (Ky. 2013). In the absence of a showing that the
family court was given an opportunity to rule on the
issue, the issue of venue is waived.
For the foregoing reasons, the order of the Campbell Family Court is reversed and the matter is remanded for the court to make findings pursuant to 8
U.S.C. § 1101(a)(27)(J) and 8 C.F.R. § 204.11.
KRAMER, JUDGE, CONCURS.
JOHNSON, JUDGE, DISSENTS AND FILES A
SEPARATE OPINION.
JOHNSON, JUDGE DISSENTING: I respectfully
dissent from the majority opinion. This is a case of first
impression. While N.D.B. attempts to rely upon
Y.M.R.G. v Cabinet for Health and Family Services,
No. 2017-CA-000898-ME, that appeal was finalized by
a dismissal from this court. There is no written legal
opinion, published or unpublished, which addresses
the authority or jurisdiction of the family court to enter into a special-findings hearing for the purpose of
allowing N.D.B. to apply for SIJ status pursuant to the
Immigration Naturalization Act.
In December 2017, a hearing was held by the
Campbell Family Court wherein the family court
found that Child was dependent. The family court
then held a hearing to determine final disposition of
Child. Relying upon the recommendation of the Cabinet for Health and Family Services the family court
made the necessary findings under KRS 620.140 and

36a
granted custody of the child to N.D.B. However, at the
dispositional hearing, N.D.B. asked the family court to
hold an additional hearing for the purpose of entering
a predicate order finding that it was not in the best
interests of the child to return to her native county of
Guatemala. N.D.B. then stated that the document
would be filed with the immigration court for the purpose of child obtaining SIJ status.
The family court declined based upon its ruling
that pursuant to KRS 620.140 it was in the best interests of the child that she remain in the custody of
N.D.B. who can care for her needs. The family court
determined that it was irrelevant to its ruling concerning the disposition of Child for it to hold an additional
hearing for the sole purpose of determining if it was in
the best interests of Child to return to Guatemala. The
family court therefore, declined to enter into a special
fact-finding proceeding to make additional findings to
satisfy the requirements of 8 U.S.C. 1101(a)(27)(J)
which would enable Child to seek SIJ status. The family court was correct in not extending its hearing to
make the special finding of facts requested by N.D.B.,
because the family court is without jurisdiction or authority to hold a hearing for the sole purpose of furthering Child’s acquisition of SIJ status.
A family court’s jurisdiction is defined by KRS
23A.100 which grants them exclusive jurisdiction over
the dissolution of marriage, child custody, visitation,
maintenance and support, distribution of property,
adoption and termination of parental rights. However,
family courts also have the general jurisdiction of a
circuit court. While the jurisdiction of our circuit
courts is broad, it is not unlimited. As the family court
noted, there is nothing in our state statutes that direct

37a
the family court to hold such a hearing for the purposes of determining disposition as set forth in KRS
620.140. The family court went on to state that if the
General Assembly wants our family courts to address
immigration issues, they can enact such a statute.
However, a determination as to whether or not an immigrant child before our family court should return to
their home country is not within the authority of the
family courts at this time.
To hold a hearing for the sole purpose of making a
determination so that an immigrant child can apply
for SIJ status is beyond the authority of our family
courts. We addressed the issue in an unpublished
opinion, Collins v Santiago, 2007-CA-000391-MR,
2007 WL 3037762 (Ky. App. October 19, 2007). In Santiago, the father was an illegal immigrant and mother
was a legal resident of the United States. In the custody hearing, the family court granted the parties joint
custody of the couple’s two children. Mother then
raised the father’s immigration status and asked the
family court to reconsider the joint custody order
based on the father’s status. Our Court declined, stating “While the jurisdiction of Kentucky’s family courts
are very broad, it does not encompass immigration issues. It is not the role of the Circuit Court to address
Santiago’s immigration status except in his capacity
to care and provide for his children.” Id. (emphasis
added). As in this case, it is not the role of the family
court to address Child’s immigration status unless it
affects whether her needs are being met.
In this case sub judice, the family court declined
to hold a hearing for the sole purpose of making special
findings which Child might use to seek SIJ status. I
agree with the family court. As the family court noted

38a
in its order when denying the motion for a special
hearing:
The Cabinet had filed a disposition report
prior to the disposition date recommending
that the child be in the custody of the current
custodian, [N.D.B.], in Newport KY. Given
the nature of the case and the fact that the
Cabinet had made such a recommendation
the Court did not feel that conditions in the
child’s nation of origin were relevant because
the recommendation of the Cabinet was that
the child was to stay in the United States with
[N.D.B].
As noted in Santiago, our family courts do not
have jurisdiction to address immigration status unless
it is necessary for a determination of the disposition of
Child under Kentucky statutes. Here, because the
family court had already made both adjudication and
dispositional findings, there is no authority for the
family court to go further. The family court correctly
noted that there are no provisions in either state or
federal statutes which would require a family court to
hold a separate hearing for the single purpose of assisting Child obtain the unique SIJ status.
Even the majority noted, for the family court to
engage in such a hearing would require “a unique hybrid procedure that directs the collaboration of state
and federal systems.” Yet, as the majority also notes
“there is no Kentucky statute which expressly requires
a family court to make findings under the SIJ [federal]
statute.” I do not see where there is a legal basis to
expand the authority of our family courts beyond that
granted by the General Assembly. I disagree with the
majority that the family court has a duty, authority,

39a
or jurisdiction to conduct a hearing which has no relevance to the adjudication or the disposition of Child
except for the sole purpose of obtaining a unique immigration status.
While the majority might like for the family court
to so act, Kentucky law is explicitly clear that we cannot can engage in advisory opinions. That, in essence,
is what the majority is asking the family court to do.
Our Kentucky Supreme Court has emphatically
stated, “[Our] Court has repeatedly reaffirmed the
proposition that it has no jurisdiction to decide issues
which do not derive from an actual case or controversy.
Power to render advisory opinions conflicts with Kentucky Constitution Section 110 and thus cannot be exercised by the Court.” Com. v. Hughes, 873 S.W.2d 828,
829-30 (Ky. 1994) (citations and internal quotation
marks omitted).
Like the majority, I am sympathetic to the plight
of Child who may face adverse conditions if she is returned to her home country. However, sympathy alone
is not a sufficient basis for establishing new law or expanding the current law. I believe that the family
court acted within its authority in granting custody to
N.D.B. But I also believe that the family court was correct when it declined, based upon relevance to the disposition of Child, to hold a hearing for the sole purpose
of immigration law. Therefore, I would affirm the family court’s order.

40a
APPENDIX C
________________________________
COMMONWEALTH OF KENTUCKY
CAMPBELL FAMILY COURT
________________________________
No. 17-J-422-001
IN THE INTEREST OF:
NELIDA MARIBEL DIAZ JUAREZ, a minor
________________________________
Feb. 1, 2018
________________________________
ORDER
This case was brought on for a hearing on January
31, 2018. Theresa Cunningham was present, representing the person exercising custody and control,
Nalberta Bravo Diaz (Nalberta Bravo). Also present
was the child, Nelida Maribel Juarez (Nelida Juarez).
She was represented by Kirk Pfefferman, who is her
Guardian ad Litem. The case was handled simultaneously with 17-J-515-001, Dayana Janeth Aguilar Diaz.
Dayana Diaz was born on January 24, 2017. Nelida
Juarez is the mother of the infant, Dayana Diaz.
Campbell County was represented by Olivia Toller. Mary Salyer was representing the father of Nelida
Juarez, Ruben Diaz who is in Guatemala; and, Martin
Haas was representing the mother of Nelida Juarez,
Fiberta Juarez, who is also in Guatemala.
On December 20, 2017, the Court found that the
child was dependent as the child was an unaccompanied minor in the United States and did not have a

41a
legal custodian present to provide supervision and
shelter. The child had come from Guatemala with
Marvin Bravo, the son of Nalberta Bravo. Nelida Juarez testified at the adjudication that she and Marvin
traveled to Mexico from Guatemala and while in Mexico were kidnapped by a gang. The gang subsequently
released them and told them not to go back to Guatemala. Whereupon, they came across the U.S. border.
The parties were detained in Arizona by Immigration
authorities. Custody of Nelida Juarez was given to a
relative in Arizona pending the immigration proceedings. She subsequently ran from there to Northern
Kentucky along with Marvin Bravo. Nelida Juarez
and Marvin Bravo are living with Nalberta Bravo.
Pursuant to Cabinet recommendation, Nalberta Bravo
was given temporary custody of the Nelida Juarez
both at the temporary removal hearing and at the adjudication hearing.
A disposition was set for January 31, 2018. Several days prior to the disposition, Ms. Cunningham
filed a Motion for Continuance as she wanted to have
expert testimony regarding the dangers of the child going back to Guatemala. The County Attorney filed a
Response opposing such. The request for a continuance was heard at the disposition on January 31, 2018.
The Court denied Ms. Cunningham’s motion for a continuance on the basis that the subject of the expert testimony was not relevant for disposition of the child.
Ms. Cunningham admitted in Court that she
wanted an extra finding to qualify the child for special
immigrant status under 8 U.S.C. § 1101(a)(27)(J)
(SIJ). That statute requires a juvenile to have a state
court order which finds the juvenile is an immigrant.

42a
i.

“who has been declared dependent on a juvenile court located in the United States or
whom such a court has legally committed to,
or placed under the custody of, an agency or
department of a State, or an individual or entity appointed by a State or juvenile court located in the United States, and whose reunification with 1 or both of the immigrant’s parents is not viable due to abuse, neglect, abandonment, or a similar basis found under State
law.

ii.

For whom it has been determined in administrative or judicial proceedings that it would
not be in the alien’s best interest to be returned to the alien’s or parent’s previous
country of nationality or country of last habitual residence; and

iii. In whose case the Secretary of Homeland Security consents to the grant of special immigrant status, except that—
I.

No juvenile court has jurisdiction to determine the custody status or placement
of an alien in the custody of the Secretary
of Health and Human Services unless the
Secretary of Health and Human Services
specifically consents to such jurisdiction;
and

II. No natural parent or prior adoptive parent of any alien provided special immigrant status under this subparagraph
shall thereafter, by virtue of such parentage, be accorded any right, privilege, or
status under this chapter . . .”

43a
Consequently, the expert testimony was to support the
proposition that conditions in Guatemala are such
that it is not in the child’s best interests to be returned
to the her parents home because of the dangerous conditions there.
The Cabinet had filed a disposition report prior to
the disposition date recommending that the child be in
the custody of the current custodian, Nalberta Bravo,
in Newport KY. Given the nature of the case and the
fact that the Cabinet had made such a recommendation the Court did not feel that conditions in the child’s
nation of origin were relevant because the recommendation of the Cabinet was that the child was to stay in
the United States with Nalberta Bravo Diaz. However,
the Court felt that there were some concerns with such
custodial arrangement as the child had reported possible domestic violence to a school counselor. The case
was set review in order to address those issues on February 28, 2018 at 9:15 a.m., Custody was maintained
with the current custodian.
The Court’s jurisdiction is set forth in KRS 23
A.100. Pursuant to that statute, the Court has jurisdiction to preside over dependency, neglect and abuse
actions under KRS 620. KRS 620.140 provides dispositional alternatives after a child is found to be dependent. There are no provisions in either statute
which would require this Court to hold a separate
hearing and engage in 8 U.S.C. 1101 factfinding process to decide whether or not re-unification with the
child’s parents in Guatemala is viable due to possible
abuse, neglect or abandonment. In addition, there is
nothing in the above mentioned law that requires a
finding that the child’s best interests would not be
served by returning the child to the previous country

44a
or nationality under. Such a hearing is unnecessary
where the Court has found that the child is dependent
and that the present custodial arrangements are appropriate to serve the best interests of the child.
This Court doesn’t have personal jurisdiction over
the parents of this child. The parents have never made
an appearance in the case. Summons for the parents
were issued but were unserved. The Court can proceed
in such circumstances simply because the child is
found within the county. K.R.S. 616.010(2). However,
the courts exercise of jurisdiction is subject to the assertion of jurisdiction of other courts or jurisdictions
as set forth in K.R.S. 610.010(7).
Counsel for the custodian had made mention in
previous court hearings that there is mandate under
federal law that this Court make such a finding. No
specific directive of such could be found in the applicable federal statutes. Moreover, this Court has serious
concerns about engaging in a factfinding process that
spans from Campbell County, Kentucky into Arizona,
through Mexico and into Guatemala. The testimony in
the prior adjudication hearing was that the child and
her boyfriend left Guatemala on their own accord.
Such a factfinding process is better left to the federal
government who have personnel and resources in all
the aforementioned places. Furthermore, requiring a
state court to make findings necessary for federal immigration cases would seem to violate anti-commandeering doctrine under the Tenth Amendment to the
United States Constitution. New York vs. U.S. 505
U.S. 144, 182 (1992); Printz vs. U.S., 521 U.S. 898, 935
(1997).
The Court is aware of the unpublished case IN
RE: Z, 2017-CA-000898 (Ky. App. June 21, 2017)

45a
where the Appellate Court remanded the action back
to the family court to make findings in accordance with
8 U.S.C. § 1101(a)(27)(J). However, the facts in that
case appear to be distinguishable from this case. Evidently, deportation was imminent in that case—to the
extent the Court invoked extraordinary relief under
CR 76.33. Further, it appears that there was no jurisdictional argument posed in that case. While that case
cited various other jurisdictions where this sort of fact
finding is permitted, it did not cite a Virginia case
which declined to make the special juvenile findings
on jurisdictional grounds. See Canales v. Torres Orellana, 800 S.E.2d 208 (Va. App. 2017). Since In Re Z is
an unreported case and cannot be cited or used as
binding precedent under CR 76.28(4)(c) this court is
not bound to follow it.
In conclusion, this Court denied the continuance
requested by Ms. Cunningham as the expert opinions
that she sought to enter were irrelevant to the disposition of this case. The Cabinet’s dispositional recommendation was that the child was to stay in Kentucky
with the present custodian. There is no requirement
that this Court enter into an additional SIJ factfinding
process under the applicable jurisdictional statute nor
the statutes relating to dependency, neglect and
abuse. Accordingly, the Court went forward with its
disposition hearing and adopted the recommendations
as requested by the Cabinet’s dispositional report.
SO ORDERED this the 1 day of Feb, 2018.
s/
JUDGE RICHARD A. WOESTE
CAMPBELL CIRCUIT COURT, DIV. III

46a
APPENDIX D
________________________________
CABINET FOR HEALTH AND FAMILY SERVICES
Department of Community Based Services
FILED
CAMPBELL FAMILY COURT
JUL 3 2019
TAUNYA JACK, CLERK
BY s/
D.C.
Matthew
G Bevin
Governor

601 Washington
Avenue, 3rd Fl
Newport, KY 41071
Phone (859) 292-6733
Fax (859) 292-6728
www.chfs.ky.gov

Adam M. Meier
Secretary

The Honorable Judge Woeste Court Date: 07/03/19
3rd Division
Campbell Family Court
330 York Street
Newport, KY 41071
Case Number(s):

Nelida 17-J-422-01
Dayana 17-J-515-01
Dylan 18-J-45-01

REVIEW:
Children:
Dylan Aguilar-Diaz
DOB: 01/04/18
Dayana Aguilar-Diaz
DOB: 01/24/17

47a
Parents:
Committed Youth Mother: Nelida Diaz-Juarez
DOB: 07/16/01
Address: All God’s Children
Father: Marvin Aguilar-Bravo
DOB: 09/12/00
Address: 235 West 10th St. Newport, KY (last known)
I.

Present Situation

This case is set for a review by the court during
last court hearing.
II. Case History
This case was opened in May 2018 because Dylan
was found as dependent due to both of his parents being minors.
III. Current Status of Case
Both of the children are currently in All God’s
Children with their mother, Nelida. Dylan and Dayana’s needs are being met by Nelida. The children are
continuing to do well in placement and are attending
daycare while Nelida is at school. The children are in
currently in the custody of CHFS.
Nelida has completed counseling services at the
Women’s Crisis Center. She was receiving Home/Hospital services through Newport High School. She is
currently doing well at All’s God Children and lives in
an independent living apartment home close to the facility. Nelida is on track to graduate high school.
Nelida will also be 18 in July 2019. Nelida has expressed interest in extending her commitment past
her 18th birthday and has also expressed interest in
wanting to participate in independent living, but

48a
remain in Nicholasville until her graduation from high
school in Nicholasville.
Marvin is currently residing in OH with his father
and is working for a construction company. Marvin
states that he is working every day, but does have an
off day on Tuesday. He states that his main means of
transportation is a cab that he has been calling. SSW
has contacted the PIER and Marvin has attended 4
anger management classes out of 12 and has been actively participating in them. It is reported that he is
very actively and arrives on time, and is doing well in
the groups. It was stated that Marvin understands
what he did and is aware of the situation. SSW inquired about follow-up recommendations after completion of the class and it was stated that Marvin continue with a self-help group, once weekly to maintain
appropriate coping skills with his personal feelings.
RECOMMENDATIONS
The Cabinet for Health and Family Services respectfully submits the following recommendations:
Custody of Children:
The children and Nelida shall remain in the custody of the Cabinet.
Nelida Diaz-Juarez:
1. Cooperate with the Cabinet.
2. Cooperate with All God’s Children.
3. Continue to meet all of children’s basic needs
including physical, mental, emotional, and medical.
4. Cooperate with all recommendations from the
independent living recommendations.

49a
Marvin Aguilar-Bravo:
1. Continue participating in classes through the
PIER and follow recommendations after finished with
the classes.
2. Participate and complete parenting classes.
3. Ensure that no further acts of violence occur.
4. Cooperate with the Cabinet.
5. Contact with the children will be at the discretion of the Cabinet.
Respectfully Submitted,
s/
Casey Bushelman, SSWII
APPROVED BY: s/
FSOS, Tracey Barrett
*

*

*

DJJ/CHFS RECOMMENDATION IN ITS REPORT
DATED 7-3-19 IS HEREBY INCORPORATED AS A
COURT ORDER
[indecipherable] Rev. 1/8/20 @ [indecipherable]
07/03/2019

FC

Judge Signature: s/

09:15 AM

Page 23 of 55

